APPENDIX A
IOWA DEPARTMENT OF PUBLIC SAFETY
SEX OFFENDER REGISTRATION
OCA**********
Tier: III
Date: 10/25/2019
Initial Registration Month: Jul
Appearance Required: Jul Oct Jan Apr
Registrant Name: YoungBear, Scott Louis
Date of Birth: 03/11/1957
Rac: I Sex: M Hgt: 510 Wgt: 185 Hair: Bro
Social Security Number
Smt: Glasses Sc Lf Arm Sc Abdom
Aliases:
Younbear, Scott Louis
Youngbear, Scott
Lewis
Youngbear, Scott L Youngbear,
Scotty
Restrictions: If no indicator is present and the
victim was under the age of eighteen, the per­
son should consider they are subject to all re­
strictions until a written notice is received
from the Iowa Sex Offender Registry.
Subject To Exclusion Zones As Defined In
Chapter 692a. 113: Yes
Subject To Residency Restriction As Defined
In Chapter 692a. 114: Yes
Subject To Prohibited Employment As Defined In Chapter 692a. 115: Yes
Residential Address:
1670 Meskwaki Rd
Tama la 52339
County Of Residence: Tama
Telephone: 641 484-6482 Cell: 641 351-2912
Start Date: 20140124 End Date:
42

Other Residents: Kapayou, Josh 19810807
Mailing Address:
1670 Meskwaki Rd
Tama la 52339
Start Date: 20140124 End Date:
Other Address:
Employer Information:
School Information:
Institute Of Higher Education:
Offense Requiring Registration
Conviction Date: 02/17/1994
Charge: Sexual Abuse 2nd Degree
Location: Toledo, IA
Rejpstrant's Age: 36 Victim Age and Gender:
Conviction Date: 10/23/1986
Statute: 709, 3,1
Charge: Lascivious Acts W/Child
Location: Toledo, IA
Registrant's Age: 29 Victim Age And Gender:
Statute: 709, 8

43

APPENDIX B
531U. S. 1068
January 8, 2001
No. 00-7438. IN RE YOUNGBEAR. Motion
of petitioner for leave to proceed in forma
pauperis denied, and petition for writ of
habeas corpus dismissed. See this Court’s
Rule 39.8. As petitioner has repeatedly
abused this Court’s process, the Clerk is di­
rected not to accept any further petitions in
noncriminal matters from petitioner unless
the docketing fee required by Rule 38(a) is
paid and the petition is submitted in compli­
ance with Rule 33.1. See Martin v. District of
Columbia Court ofAppeals, 506 U. S. 1 (1992)
(per curiam). Justice Stevens dissents. See
id., at 4, and cases cited therein.

44

APPENDIX C
IN THE IOWA DISTRICT COURT
IN AND FOR TAMA COUNTY
THE STATE OF IOWA,
Plaintiff,
vs.
No. CR 4753
SCOTT LOUIS YOUNGBEAR,
ORDER
Defendant.
At the request of Defendant and his coun­
sel, the Motion to Withdraw Guilty Plea is
withdrawn. On the 17th day of February,
1994, the Defendant appeared in open court
with Attorney Nancy Burk, for pronounce­
ment of judgment and sentence. The State ap­
peared by County Attorney Brent Heeren.
There being no legal reason why judgment
and sentence should not now be pronounced,
and the Court having examined the record
and heard the recommendations of counsel,
now enters the following:
Pursuant to the record made and the plea of
guilty entered herein, IT IS NOW AD­
JUDGED that the Defendant is guilty of the
offense of Sexual Abuse in the Second Degree,
in violation of Iowa Code Sections 709.3(2)
and 709.1.
IT IS FURTHER ORDERED, pursuant to
said Section(s), that the Defendant be sen­
tenced as follows:

45

1. The Defendant is committed to the cus­
tody of the Director of the Iowa Department of
Corrections for an indeterminate term not to
exceed 25 years.
2. The Defendant shall make restitution
and the following Plan of Restitution is estab­
lished pursuant to Iowa Code Section 910.3:
The Defendant shall make restitution to the
following named victim(s) of Defendant's
criminal activity:
There is no victim restitution.
Defendant shall make restitution for the ex­
pense of the Court-appointed attorney in the
amount subsequently approved by the Court;
and for court costs as assessed by the Clerk of
Court (including any accruing after this date).
3. Within 90 days from this date, the Direc­
tor or his designee shall review the Plan of
Restitution and shall submit a Restitution
Plan of Payment to the Court for approval
and signature as provided in Iowa Code Sec­
tion 910.4.
4. The temporary custody of the Defendant
shall remain with the Sheriff of Tama County
pending Defendant's transfer to the Iowa
Medical and Classification Center at Oakdale,
Iowa. Tama County shall pay the costs of tem­
porarily confining the Defendant and trans­
porting the Defendant to the Center.
5. This Court recommends that the Board of
Parole follow its usual rules, regulations, and
guidelines in determining when the Defen46

dant would be eligible for release or parole.
The Defendant's term of incarceration may be
reduced by as much as half of the maximum
sentence because of statutory good conduct
time, work credits, and program credits. The
Defendant may be eligible for parole before
the sentence is discharged.
6. Defendant is entitled to credit for 104
days spent in custody in connection with this
offense.
7. Defendant's appearance bond, if any, is
exonerated. The reasons for and the facts sup­
porting the sentence are as follows:
The Defendant's age, his prior record, the
circumstances of the offense, the victim is a
child, the sentence is mandatory, and hope­
fully the Defendant’s sexual abuse and sub­
stance abuse problems can be dealt with effec­
tively in the institutional setting.
Defendant is advised of the right to appeal
to the Iowa Supreme Court. The offense is not
bailable.
Dated this 17th day of February, 1994.

[SIGNED]
THOMAS L. KOEHLER,
Judge of the Sixth Judicial
District of Iowa

47

APPENDIX D
IN THE IOWA DISTRICT COURT
IN AND FOR TAMA COUNTY
STATE OF IOWA,
Plaintiff,
vs.
No. CR 2308
JUDGMENT AND
SCOTT LOUIS
YOUNGBEAR,
SENTENCE
Defendant.
(Commitment to Director)
This being the time set for sentencing, the
Defendant appeared in court in person and
with his counsel, John Thompson. The State
was represented by Tama County Attorney
Brent D. Heeren.
The Defendant and Defendant's counsel
both state Defendant has no cause to show
why judgment should not now be pronounced
against him.
IT IS, THEREFORE, THE JUDGMENT
AND SENTENCE of this Court, pursuant to
Section 709.8 and Chapter 902 of the Iowa
Criminal Code,
1. Defendant is hereby sentenced and com­
mitted into the custody of the Director of the
Division of Adult Corrections at the Iowa
Medical and Classification Center at Oakdale,
Iowa. Tama County shall pay the costs of tem­
porarily confining the Defendant and trans­
porting the Defendant to the Center.

48

2. Defendant is sentenced to serve an inde­
terminate sentence not to exceed 5 years.
3. Defendant shall make restitution to
Tama County for court costs in the sum of
$55.00, as determined by the Clerk of Court,
and for court-appointed attorney fees in an
amount not to exceed $600.00. Said court
costs and court-appointed attorney fees shall
be fixed in a Restitution Plan of Payment to
be prepared by the supervising agency pur­
suant to Chapter 910.
4. Within 30 days from the date of this Or­
der, the supervising agency shall review the
above Plan of Restitution and shall submit a
Restitution Plan of Payment to the Court for
approval and signature.
5. Pursuant to Iowa Code Section 246.38,
the Defendant is credited for -O- days previ­
ously served in custody on this charge.
6. Pending transfer of Defendant's custody
to the Director, the Defendant shall be in the
custody of the Tama County Sheriff.
The reasons for the sentence imposed are:
The nature and circumstances of the offense
including the age of the victim, Defendant's
prior criminal record, the contents and recom­
mendation of the presentence investigation,
protection of the community, and rehabilita­
tion of the Defendant.
The Clerk of this court shall forthwith cer­
tify a copy of this Order and deliver it to the

49

Director of the Division of Adult Corrections
and the Tama County Sheriff. Clerk shall also
notify counsel.
Defendant was advised of the right to ap­
peal. Appearance bond, if any, is exonerated,
and appeal bond is fixed in the sum of
$7,500.00.
Dated this 23rd day of October, 1986.

[SIGNED]
VAN D. ZIMMER, JUDGE
SIXTH JUDICIAL DISTRICT
OF IOWA

50

